E-Mail Address: 775 H Street, N.E.
Est. 194

briefs@wilsonepes.com Washington, D.C. 20002
WSO H TG Web Site: Tel (202) 789-0096
ewes www.wilsonepes.com Fax (202) 842-4896
No. 20-1114

AMERICAN HOSPITAL ASSOCIATION, ET AL.,

Petitioners,
v.

NORRIS COCHRAN, IN HIS OFFICIAL CAPACITY AS
ACTING SECRETARY OF HEALTH AND HUMAN SERVICES,

Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on February 23, 2021, three (3) copies of the BRIEF OF AMICI
CURIAE 36 STATE AND REGIONAL HOSPITAL ASSOCIATIONS IN SUPPORT OF
PETITIONERS in the above-captioned case were served, as required by U.S. Supreme Court Rule
29.5(c), on the following:

DONALD B. VERRILLI JR. ELIZABETH B. PRELOGAR
MUNGER, TOLLES & OLSON LLP Acting Solicitor General
601 Massachusetts Avenue, NW UNITED STATES DEPARTMENT OF JUSTICE
Suite 500E 950 Pennsylvania Avenue, NW
Washington, DC 20001-5369 Washington, DC 20530-0001
(202) 220-1101 (202) 514-2217
Counsel for Petitioners Counsel for Respondent
American Hospital Association, et al. Norris Cochran, in his official

capacity as Acting Secretary of Health
and Human Services

The following email addresses have also been served electronically:

donald.verrilli@mto.com

SupremeCtBriefs@USDOJ.gov
chadgolder@gmail.com .

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 23rd day of February 2021.
ghee

OM Case vin,
. Ae

  
    

   

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.
